Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




         MEDICARE
 INAPPROPRIATELY PAID FOR
    DRUGS ORDERED BY
   INDIVIDUALS WITHOUT
  PRESCRIBING AUTHORITY




                    Daniel R. Levinson
                     Inspector General

                       June 2013
                     OEI-02-09-00608
MEDICARE INAPPROPRIATELY PAID FOR DRUGS ORDERED BY
INDIVIDUALS WITHOUT PRESCRIBING AUTHORITY
OEI-02-09-00608

WHY WE DID THIS STUDY

Under Medicare Part D, the Centers for Medicare & Medicaid Services (CMS) contracts
with private insurance companies, known as sponsors, to provide prescription drug
coverage to beneficiaries who choose to enroll. In recent years, prescription drug abuse
has emerged as a serious and growing problem. The Centers for Disease Control and
Prevention has characterized prescription drug abuse as an epidemic. With the rise in
prescription drug abuse, concerns about Medicare fraud, particularly prescriber fraud,
have increased.

HOW WE DID THIS STUDY

We based this study on an analysis of all Prescription Drug Event records from 2009.
Sponsors submit these records to CMS for each drug dispensed to beneficiaries enrolled
in their plans. We matched each record to the National Plan and Provider Enumeration
System to determine the prescriber type, such as physician or dentist. We selected 14
types that clearly did not have the authority to prescribe and identified the drugs they
prescribed nationwide. We also identified 7 other types for a more in-depth review in the
10 States with the highest Part D payments.

WHAT WE FOUND

Nationwide, Part D inappropriately paid for drugs ordered by individuals who clearly did
not have the authority to prescribe, such as massage therapists, athletic trainers, home
contractors, interpreters, and transportation companies. This raises concerns about the
appropriateness of Part D payments and about patient safety. In 10 States, Part D also
inappropriately paid for drugs ordered by other individuals without the authority to
prescribe, such as counselors, social workers, and chiropractors. Tens of thousands of
these drugs were controlled substances. These drugs are of particular concern because
they have potential for abuse.

WHAT WE RECOMMEND

Our findings show the need for increased oversight of prescribers. We recommend that
CMS: (1) require sponsors to verify that prescribers have the authority to prescribe
drugs, (2) increase the Medicare Drug Integrity Contractor’s monitoring of prescribers,
(3) ensure that Medicare does not pay for prescriptions from individuals without
prescribing authority, and (4) follow up on the individuals without prescribing authority
who ordered prescriptions. CMS concurred with all four recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings......................................................................................................10
           Nationwide, Part D inappropriately paid for drugs ordered by
           individuals who clearly did not have the authority to prescribe,
           such as massage therapists and athletic trainers. ...........................10

           In 10 States, Part D also inappropriately paid for drugs ordered
           by other individuals without the authority to prescribe, such as
           counselors and social workers. ......................................................12

           Tens of thousands of drugs ordered by individuals without
           prescribing authority were controlled substances ..........................14
Conclusion and Recommendations ............................................................16
           Agency Comments and Office of Inspector General Response... ..18
Appendix ....................................................................................................20
           A: Agency Comments ...................................................................20
Acknowledgments......................................................................................23
                   OBJECTIVE
                   To determine whether Medicare Part D paid for drugs ordered by
                   individuals who did not have the authority to prescribe.

                   BACKGROUND
                   The Medicare Part D program provides an optional prescription drug
                   benefit to Medicare beneficiaries. 1 The Centers for Medicare & Medicaid
                   Services (CMS) contracts with private insurance companies, known as
                   sponsors, to provide drug coverage to beneficiaries who choose to enroll.
                   In 2011, 36 million beneficiaries were enrolled in Part D. 2
                   Prescription drug abuse is a serious and growing problem. The Centers
                   for Disease Control and Prevention (CDC) has characterized prescription
                   drug abuse as an epidemic. 3 In 2010, approximately 7 million people in
                   the United States were misusing prescription drugs. 4 Moreover, overdoses
                   of prescription painkillers—called opioids—are among the leading causes
                   of accidental death in the United States. 5
                   With the rise in prescription drug abuse, concerns about Medicare fraud,
                   particularly prescriber fraud, have increased. A number of recent fraud
                   cases have focused on prescribers. In one case, a physician knowingly
                   allowed nonmedical personnel to prescribe commonly abused painkillers,
                   such as oxycodone, morphine, and hydrocodone, to Medicare patients. 6 In
                   a similar case, a physician assistant used prescriptions that were signed in
                   advance by a physician to inappropriately prescribe drugs to Medicare



                   1
                     The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                   P.L. 108-173.
                   2
                     The Boards of Trustees, Federal Hospital Insurance and Federal Supplementary
                   Medical Insurance Trust Funds, 2012 Annual Report of the Boards of Trustees of the
                   Federal Hospital Insurance and Federal Supplementary Medicare Insurance Trust
                   Funds, p. 164. Accessed at http://www.cms.gov/Research-Statistics-Data-and-
                   Systems/Statistics-Trends-and-Reports/ReportsTrustFunds/Downloads/TR2012.pdf on
                   July 6, 2012.
                   3
                     CDC, Press Release, Prescription Painkiller Overdoses at Epidemic Levels,
                   November 1, 2011. Accessed at
                   http://www.cdc.gov/media/releases/2011/p1101_flu_pain_killer_overdose.html on
                   February 21, 2012.
                   4
                     National Institute on Drug Abuse, Topics in Brief: Prescription Drug Abuse,
                   December 2011. Accessed at http://www.drugabuse.gov/publications/topics-in-
                   brief/prescription-drug-abuse on September 18, 2012.
                   5
                     CDC, Unintentional Drug Poisonings in the United States, July 2010.
                   6
                     Federal Bureau of Investigation, Palmetto Physician Pleads Guilty To Illegal
                   Prescription Drug and Medicare Fraud Conspiracies, March 18, 2010. Accessed at
                   http://www.fbi.gov/tampa/press-releases/2010/ta031810.htm on July 2, 2012.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   1
                   beneficiaries. 7 In another case, a chiropractor was charged with illegally
                   dispensing and distributing prescription drugs. 8
                   This report is part of a larger body of work examining Part D billing.
                   Another report identified pharmacies with questionable billing in 2009. 9 A
                   third report identified inappropriate Part D payments for Schedule II
                   refills. 10 A fourth report determines the extent to which general-care
                   physicians have questionable prescribing patterns. 11 All four reports are
                   part of the Health Care Fraud Prevention and Enforcement Action Team
                   Initiative (HEAT), which focuses on detecting health care fraud through
                   innovative data analysis and enhanced cooperation among the Department
                   of Justice (DOJ), OIG, and CMS. 12
                   Prescription Drugs
                   Medicare Part D covers prescription drugs that meet certain requirements
                   and are used for medically accepted indications. 13 CMS considers a drug
                   to be “prescription” if the Food and Drug Administration has determined it
                   must be labeled “℞ only,” which means it cannot be dispensed without a
                   prescription from a practitioner who is licensed to prescribe such drugs. 14
                   The types of practitioners that are licensed to prescribe drugs are
                   determined by State law.
                   The Drug Enforcement Agency (DEA) regulates certain drugs that have
                   potential for abuse and dependence, called controlled substances. 15 These


                   7
                     Attorney General of Texas, A Dallas Man Pleads Guilty to Health Care Fraud in State
                   and Federal Probe, July 18, 2012. Accessed at
                   https://www.oag.state.tx.us/oagNews/release.php?id=4091 on July 23, 2012.
                   8
                     Department of Justice (DOJ), Former Daytona Beach Chiropractor Charged With
                   Illegally Dispensing Prescription Drugs and Health Care Fraud. Accessed at
                   http://www.justice.gov/usao/flm/press/2012/may/20120518_Wagner.html on
                   May 22, 2012.
                   9
                     Office of Inspector General (OIG), Retail Pharmacies With Questionable Part D
                   Billing, OEI-02-09-00600, May 2012.
                   10
                      OIG, Inappropriate Part D Payments for Schedule II Drugs Billed as Refills,
                   OEI-02-09-00605, September 2012.
                   11
                      OIG, Prescribers with Questionable Patterns in Medicare Part D, OEI-02-09-00603,
                   June 2013.
                   12
                      U.S. Department of Health and Human Services and DOJ, HEAT Task Force Success.
                   Accessed at http://www.stopmedicarefraud.gov/heattaskforce/index.html on January 11,
                   2011.
                   13
                      For more information, see 42 U.S.C. § 1860D-2(e) and CMS, Medicare Prescription
                   Drug Benefit Manual, Chapter 6, Part D Drugs and Drug Formulary Requirements,
                   February 2010.
                   14
                      CMS, Medicare Prescription Drug Benefit Manual, Chapter 6, Part D Drugs and
                   Drug Formulary Requirements, § 10, February 2010. Also see 21 U.S.C. § 353(b)(1).
                   15
                      21 U.S.C. § 801 et seq. Also see DEA, Office of Diversion Control, Controlled
                   Substance Schedule. Accessed at
                   http://www.deadiversion.usdoj.gov/schedules/index.html#define on November 13, 2012.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   2
                   drugs are divided into five schedules. Schedule II drugs have the highest
                   potential for abuse of any prescription drugs legally available in the
                   United States. 16 They include stimulants and narcotics commonly used to
                   relieve pain, such as oxycodone and morphine. Drugs on Schedules III
                   through V also have a potential for abuse and psychological or physical
                   dependence. The DEA requires all practitioners who handle controlled
                   substances to register with the agency. 17 It assigns each registrant a DEA
                   number and maintains a database with information about each registrant,
                   such as name, address, degree, and the drug schedules each is permitted to
                   handle.
                   Part D Oversight
                   CMS relies on sponsors to help safeguard Part D from fraud and abuse.
                   CMS requires sponsors to have compliance plans that contain measures to
                   detect, prevent, and correct fraud, waste, and abuse. 18 CMS recommends
                   that sponsors use data analysis as part of these plans. 19 Specifically, it
                   recommends that sponsors develop indicators and establish baseline data
                   so that they can recognize abnormalities and changes in prescribing
                   patterns.
                   In addition, CMS contracts with a Medicare Drug Integrity Contractor
                   (MEDIC) to detect and prevent fraud, waste, and abuse. Its
                   responsibilities include identifying and investigating potential fraud and
                   abuse, referring cases, and fulfilling requests for information from law
                   enforcement. 20 The MEDIC is required to identify potential fraud and
                   abuse through external sources, such as tips, as well as proactive methods,
                   such as data analysis. 21
                   CMS is responsible for the oversight of the sponsors and the MEDIC.
                   CMS conducts a number of audits for sponsors, including onsite audits of
                   their compliance plans. 22 During these audits, CMS assesses the



                   16
                      Schedule I drugs currently have no accepted medical use in the United States. They
                   include drugs such as heroin.
                   17
                      DEA registration grants prescribers Federal authority to handle certain schedules of
                   controlled substances. See 21 CFR § 1301.11.
                   18
                      42 CFR § 423.504(b)(4)(vi).
                   19
                      CMS, Prescription Drug Benefit Manual Chapter 9, Compliance Program Guidelines
                   § 50.6.9, July 2012. Accessed at http://www.cms.gov/Medicare/Prescription-Drug-
                   Coverage/PrescriptionDrugCovContra/Downloads/Chapter9.pdf on
                   September 12, 2012.
                   20
                      CMS, MEDIC Statement of Work, July 2009.
                   21
                      For more information on the responsibilities of the MEDIC, see OIG, MEDIC Benefit
                   Integrity Activities in Medicare Parts C and D, OEI-03-11-00310, January 2013.
                   22
                      For more information on audits by CMS, see OIG, Audits of Medicare Prescription
                   Drug Plan Sponsors, OEI-03-09-00330, December 2011.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   3
                   effectiveness of sponsors’ fraud and abuse programs. CMS evaluates the
                   MEDIC’s performance annually.
                   Prescription Drug Event Data
                   Sponsors submit a Prescription Drug Event (PDE) record to CMS for each
                   prescription filled for their enrollees. CMS uses the PDE records to
                   administer the program and to calculate its payments to sponsors at the
                   end of each year in a process known as reconciliation. Each PDE record
                   contains information about the drug and beneficiary. It also includes
                   identification numbers for the prescriber and pharmacy, which are
                   typically National Provider Identifiers (NPI). 23
                   Sponsors are required to certify the accuracy, completeness, and
                   truthfulness of their PDE data. 24 Beginning in January 2012, they are also
                   required to ensure that the prescriber identifiers on the PDE records are
                   active and valid, meaning that they are currently assigned to a health care
                   provider. 25 NPIs are assigned to many types of health care providers.
                   Having an NPI does not mean that an individual has the authority to
                   prescribe drugs. CMS does not specifically require sponsors to verify that
                   drugs are ordered by individuals who have the authority to prescribe.
                   Prescriber Information
                   CMS maintains a registry of all the NPIs it assigns in its National Plan and
                   Provider Enumeration System (NPPES) database. 26 To receive an NPI,
                   providers report certain identifying information such as their names,
                   addresses, and professional credentials, such as M.D. or R.N. Providers
                   also indicate whether they are individuals or organizations, such as a
                   hospital, clinic, or group practice.
                   Providers must also select a taxonomy code that provides information
                   about their primary specialty. 27 The taxonomy code indicates a provider’s

                   23
                      PDE records allow four types of prescriber identification numbers: NPIs, DEA
                   numbers, State license numbers, and Unique [Physician] Identification Numbers (UPIN).
                   See CMS, Prescriber Identifier on Part D NCPDP Pharmacy Claims Transactions,
                   May 1, 2009. Accessed at https://www.cms.gov/Medicare/Prescription-Drug-
                   Coverage/PrescriptionDrugCovContra/Downloads/MemoNPIPrescriberID_050108v2.pdf
                   on December 5, 2012.
                   24
                      42 CFR § 423.505(k).
                   25
                      Sponsors must also confirm that any controlled substance is within the prescriber’s
                   scope of practice to prescribe. CMS, Announcement of Calendar Year (CY) 2012
                   Medicare Advantage Capitation Rates and Medicare Advantage and Part D Payment
                   Policies and Final Call Letter, April 4, 2011.
                   26
                      The Health Insurance Portability and Accountability Act of 1996 (HIPAA) required the
                   development of a standard unique health care system identifier for each provider.
                   Providers that are subject to HIPAA must have an NPI. This includes all providers that
                   bill Medicare.
                   27
                      CMS, National Plan and Provider Enumeration System (NPPES) Data Elements Data
                   Dissemination: Information for Providers, June 20, 2007.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   4
                   type and specialty, if any. For example, it may indicate that a prescriber is
                   a family-medicine physician specializing in geriatric medicine.
                   Providers must ensure that information in the NPPES database, including
                   the taxonomy, is updated and accurate. When applying for an NPI,
                   providers certify that the information is correct and that they agree to
                   provide notification within 30 days of any changes. 28
                   Related Work
                   A recent OIG report found that 2,637 retail pharmacies had questionable
                   billing in 2009. 29 These pharmacies had extremely high billing for at least
                   one of the eight measures we developed. For example, many pharmacies
                   billed extremely high dollar amounts or numbers of prescriptions per
                   beneficiary or per prescriber, which could mean that a pharmacy is billing
                   for drugs that are not medically necessary or were never provided. Among
                   other things, the report recommended that CMS strengthen its monitoring
                   of pharmacies, provide additional guidance to sponsors on monitoring
                   pharmacy billing, and further strengthen its compliance plan audits. CMS
                   concurred with these recommendations.
                   Another recent OIG report found that Medicare Part D inappropriately
                   paid $25 million for Schedule II drugs billed as refills in 2009. 30 Sponsors
                   should not have paid for any of these drugs because Federal law prohibits
                   the refilling of Schedule II controlled substances without a valid
                   prescription. 31 Also, three-quarters of Part D sponsors paid for Schedule II
                   drugs billed as refills, indicating that many sponsors do not have adequate
                   controls to prevent these refills. Among other things, the report
                   recommended that CMS issue guidance to sponsors to prevent billing of
                   Schedule II refills and to exclude Schedule II refills when calculating
                   payments to sponsors.
                   Another OIG report found that Medicare Part D paid $1.2 billion in 2007
                   for drugs with invalid prescriber identifiers, which had either never been
                   assigned or had been retired. 32 The report recommended that CMS
                   conduct periodic reviews to ensure the validity of prescriber identifiers

                   28
                      CMS, National Provider Identifier (NPI) Application/Update Form, November 2008.
                   Accessed at https://www.cms.gov/Medicare/CMS-Forms/CMS-
                   Forms/Downloads/CMS10114.pdf on June 5, 2012.
                   29
                      OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600,
                   May 2012.
                   30
                      OIG, Inappropriate Part D Payments for Schedule II Drugs Billed as Refills,
                   OEI-02-09-00605, September 2012.
                   31
                      Federal law permits partial refills under certain circumstances. It is possible some of
                   these drugs may have been inaccurately billed as refills when they were partial fills.
                   32
                      OIG, Invalid Prescriber Identifiers on Medicare Part D Claims, OEI-03-09-00140,
                   June 2010.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   5
                   and require Part D plans to institute procedures to identify and review
                   records containing invalid prescriber identifiers.
                   Finally, another OIG report found barriers to the MEDIC’s benefit
                   integrity efforts. 33 These barriers included problems in sharing of
                   information and recovering inappropriate payments. The report also found
                   that only a small percentage of the MEDIC’s investigations and case
                   referrals resulted from proactive data analysis. In the 1-year study period,
                   the MEDIC initiated just 209 Part D investigations from proactive
                   methods, such as data analysis.

                   METHODOLOGY
                   We based this study on an analysis of all PDE records from 2009, which
                   we collected to undertake this study and other studies. 34 We matched these
                   records to the NPPES database to obtain descriptive information about the
                   prescribers.
                   PDE Data
                   We identified all PDE records for covered Part D drugs with dates of
                   service from January 1 to December 31, 2009. 35 We identified
                   1.07 billion PDE records. 36
                   For each PDE record, we identified the identification number of the
                   prescriber, which was generally an NPI. For records that used other types
                   of prescriber identification numbers, we used a “crosswalk” developed by
                   OIG analysts to identify the prescriber’s NPI. 37
                   Using the NPI, we determined which PDE records were prescribed by
                   individuals, as opposed to organizations. We focused our review on
                   individual prescribers because organizations may be associated with
                   multiple prescribers. We identified 1,102,275 individual prescribers who
                   were associated with 1.03 billion PDE records. 38 These records represent

                   33
                      OIG, MEDIC Benefit Integrity Activities in Medicare Parts C and D,
                   OEI-03-11-00310, January 2013.
                   34
                      These studies include: Retail Pharmacies With Questionable Part D Billing
                   (OEI-02-09-00600); Inappropriate Part D Payments for Schedule II Drugs Billed as
                   Refills (OEI-02-09-00605); and Prescribers with Questionable Patterns in Medicare
                   Part D (OEI-02-09-00603).
                   35
                      This excludes any over-the-counter medications that sponsors provide as part of a
                   utilization management program. These medications are not considered covered Part D
                   drugs.
                   36
                      The exact number of PDE records was 1,070,149,994.
                   37
                      To develop this crosswalk, we used information from the Services Tracking, Analysis,
                   and Reporting System, the DEA database, and the NPPES. We did not include
                   214,042 PDE records in our review because they did not have prescriber identification
                   numbers.
                   38
                      The exact number of PDE records was 1,026,983,870.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   6
                   96 percent of all PDE records and totaled $71 billion in Medicare
                   payments. 39 All of these records contained NPIs that were assigned to
                   providers. Having an NPI, however, does not mean that a provider has the
                   authority to prescribe.
                   Analysis
                   To determine the prescriber type, such as a physician or dentist, we
                   matched the NPI for each individual prescriber to the NPPES. We used
                   the taxonomy code reported by each prescriber in the NPPES and grouped
                   these codes into categories of prescriber types. 40
                   We reviewed the prescriber types of all Part D prescribers nationwide. We
                   selected 14 prescriber types, such as contractors or veterinarians, that
                   clearly did not have prescribing authority. We identified all of the PDE
                   records for these prescriber types in all 50 States, the District of Columbia,
                   and the Territories. 41
                   We then conducted a more in-depth analysis of 10 States. To do this, we
                   identified the 10 States with the highest Part D payments in 2009:
                   California, Florida, New York, Texas, Pennsylvania, Ohio, Illinois, North
                   Carolina, Michigan, and New Jersey. 42 These States accounted for
                   53 percent of all Medicare Part D payments in 2009. 43 We selected seven
                   prescriber types that we suspected did not have the authority to prescribe
                   in these States. Attorneys from the Office of Counsel to the Inspector
                   General reviewed State laws and confirmed that none of these 7 prescriber
                   types had the authority to prescribe in these States. We then identified all
                   of the PDE records for the 7 prescriber types in the 10 States.
                   We took several steps to verify that the individuals identified nationwide
                   and in the 10 States did not report any other information in the NPPES that
                   suggested they had the authority to prescribe. First, we reviewed all the
                   information that these individuals reported in the additional taxonomy
                   fields in the NPPES. 44 Second, we reviewed the information they reported
                   in the credential field in the NPPES. We also determined whether any of


                   39
                     The exact amount was $70,657,705,438. We used three fields on the PDE records to
                   calculate Part D payments: the ingredient cost, dispensing fee, and sales tax.
                   40
                      We grouped codes based on the prescribers’ scope of practice or services. For
                   example, we grouped all of the counselors together and all of the non-advanced practice
                   nurses together, including Registered Nurses and Licensed Practical Nurses.
                   41
                      For the purposes of this review, we refer to the District of Columbia and the Territories
                   as States.
                   42
                      We calculated Part D payments for each State based on the prescribers’ ZIP Codes.
                   43
                      Medicare Part D payments in these 10 States amounted to $37,715,549,212 in 2009.
                   44
                      Providers may report up to 14 other taxonomies, in addition to their primary taxonomy.
                   We reviewed all of the taxonomy codes these prescribers reported.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   7
                   these individuals had a DEA number.45 We assumed that individuals who
                   reported any information suggesting that they were physicians, advance
                   practice nurses, physician assistants, dentists, podiatrists, or optometrists
                   or had a DEA number had the authority to prescribe and therefore
                   excluded them from our analysis. For example, if a prescriber reported
                   that he was an interpreter, but included “M.D.” in the credential field, we
                   assumed that he was a physician and excluded him from our analysis.
                   We then analyzed the PDE data for the 14 prescriber types we identified
                   nationwide.46 For these prescriber types, we calculated the total number of
                   prescriptions and the amount Medicare paid for these prescriptions in all
                   States.47 For the purposes of this study, we use the term “prescription” to
                   mean one PDE record.
                   We also analyzed the PDE data for the 7 prescriber types in the 10 States
                   and calculated the total number of prescriptions these prescribers ordered
                   and the amount Medicare paid for these prescriptions. We did this
                   analysis by prescriber type and by State.
                   Finally, we calculated the total number of prescriptions for controlled
                   substances ordered by the 14 prescriber types nationwide and the
                   7 prescriber types in the 10 States. To do this, we matched the National
                   Drug Code on the PDE record to data from First DataBank. First
                   DataBank indicates whether a drug is a controlled substance and, if so,
                   which schedule the drug is on. We used this information to calculate the
                   total number of prescriptions for controlled substances—Schedules II
                   through IV—ordered by these prescriber types.48
                   Limitations
                   This report does not review all prescriber types without the authority to
                   prescribe. It looks at selected types that clearly do not have authority


                   45
                     We used a crosswalk developed by OIG analysts that linked the NPIs to DEA numbers.
                   This is a conservative approach. Not every prescriber with a DEA number has the
                   authority to prescribe controlled substances. In some cases, mid-level practitioners have
                   the right to only administer or dispense the drugs. DEA, Office Diversion Control,
                   Mid-Level Practitioners Authorization by State, accessed at
                   http://www.deadiversion.usdoj.gov/drugreg/practioners/index.html on August 8, 2012.
                   46
                      We excluded PDE records for specific insulin brands that did not require a
                   prescription. We identified these brands of insulin using the Food and Drug
                   Administration drug labels. We also excluded medical supplies associated with the
                   delivery of insulin, such as syringes, needles, and alcohol swabs, which are covered by
                   Part D but do not require a prescription.
                   47
                      To calculate the total amount Medicare paid, we summed three fields on the PDE
                   records that represent the total gross drug costs: ingredient cost, dispensing fee, and sales
                   tax.
                   48
                      We were unable to match 105 PDE records to First Databank. As a result, we could
                   not determine whether they were controlled substances.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   8
                   nationwide and selected types that do not have the authority to prescribe in
                   the 10 States.
                   In addition, this review is based on an analysis of PDE data; we did not
                   review documentation from the pharmacies or prescribers to verify the
                   data. We also did not independently verify the accuracy of the data from
                   the NPPES.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   9
                   FINDINGS
                   Nationwide, Part D inappropriately paid for drugs
                   ordered by individuals who clearly did not have the
                   authority to prescribe, such as massage therapists
                   and athletic trainers
                   Medicare should never pay for drugs ordered by individuals who do not
                   have the authority to prescribe. To be covered under Medicare Part D,
                   drugs must be prescribed in accordance with State law, which specifies the
                   types of health care providers that have the authority to prescribe drugs in
                   the State. Although these health care providers can vary by State, some
                   types clearly do not have the authority to prescribe in any State. If drugs
                   are being ordered for Medicare beneficiaries by individuals who do not
                   have the authority prescribe, it raises concerns about the appropriateness
                   of Part D payments and about patient safety.
                   A review of Part D payments nationwide showed that Medicare
                   inappropriately paid for 72,552 prescriptions ordered by 14 prescriber
                   types that clearly do not have the authority to prescribe in any State. We
                   selected these 14 prescriber types for review; they do not represent all
                   types without the authority to prescribe. The 14 types included massage
                   therapists, athletic trainers, and dental hygienists. None have the training
                   necessary to prescribe drugs. In total, Medicare paid $5.4 million for
                   prescriptions ordered by the 14 prescriber types we reviewed. 49 (See
                   Table 1.)




                   49
                     This total includes the amounts paid by Part D sponsors, by the Government, and by or
                   on behalf of beneficiaries.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   10
                   Table 1: Selected Prescriber Types Without the Authority To Prescribe,
                   Nationwide, 2009

                                                                                                         Number of                Total
                                                                                  Number of
                    Prescriber Type                                                                     Individuals            Medicare
                                                                               Prescriptions
                                                                                                    Who Prescribed            Payments

                    Dietitian and Nutritionist                                          20,044                      713      $1,684,988

                    Audiologist or Other Hearing/Speech-Related
                                                                                        16,229                      706      $1,085,699
                    Services

                    Massage Therapist                                                   12,082                      240        $798,991

                    Athletic Trainer                                                     8,795                      398        $694,288

                    Optician                                                             3,860                      157        $261,285

                    Dental Hygienist, Dental Assistant, Denturist                        3,085                      223        $144,177

                    Contractor                                                           2,827                      117        $178,443

                    Home Health Aide or Other Personal Care
                                                                                         1,781                      117        $287,527
                    Provider

                    Interpreter                                                          1,529                         7         $68,225

                    Transportation or Lodging Company                                       890                      26          $49,689

                    Speech-Language Assistant                                               549                      23          $32,503

                    Music or Art Therapist                                                  493                      21          $61,678

                    Nursing Technician                                                      267                      12          $21,058

                    Veterinarian                                                            121                      20           $6,080

                        Total                                                           72,552                    2,780     $5,374,632*
                   *Total does not equal $5,374,632 because of rounding. It includes the amounts paid by Part D sponsors, by the
                   Government, and by or on behalf of beneficiaries.
                   Note: The prescriber types in the table are not a comprehensive list of all types that do not have the authority to
                   prescribe.
                   Note: For the purposes of this report, we considered a prescription to be one PDE record.
                   Source: OIG analysis of Part D data, 2012.



                   Notably, massage therapists ordered 12,082 prescriptions in 2009.
                   Athletic trainers ordered another 8,795. Contractors ordered
                   2,827 prescriptions; these individuals complete home repairs or
                   modifications to accommodate a health condition, such as wheelchair
                   ramps. Others who ordered prescriptions paid by Part D included personal
                   care providers (e.g., home health aides, chore providers, and companions),
                   interpreters, transportation companies (e.g., taxis, private vehicles, and
                   drivers), lodging companies, and veterinarians.




Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)                           11
                                 Examples of Individuals Without Prescribing Authority

                                 Who Ordered Extremely High Amounts of Part D Drugs


                       	 One Florida massage therapist ordered 3,756 prescriptions,
                          amounting to $183,132.
                       	 A Florida dietician ordered 2,645 prescriptions for a total of
                          165 beneficiaries.
                       	 An interpreter ordered 1,210 prescriptions filled at 55 pharmacies.




                   In 10 States, Part D also inappropriately paid for
                   drugs ordered by other individuals without the
                   authority to prescribe, such as counselors and social
                   workers
                   An in-depth analysis of 10 States revealed that Part D inappropriately paid
                   for 344,714 prescriptions ordered by other selected types that did not have
                   the authority to prescribe. In total, Medicare paid $26.2 million for drugs
                   ordered by counselors, chiropractors, social workers, physical therapists,
                   registered nurses, occupational therapists, and speech-language
                   pathologists. 50 Our review of State laws found that these prescriber types
                   did not have the authority to prescribe drugs in any of the 10 States.
                   Although the seven selected prescriber types were the focus of the in-
                   depth State analysis, they do not represent all types without authority to
                   prescribe in these States.
                   As shown in Table 2, counselors ordered 87,400 prescriptions, the most of
                   the prescriber types reviewed in the 10 States. Counselors include such
                   professions as marriage and family therapists. Chiropractors were next,
                   with 70,681 prescriptions, followed by social workers, with
                   69,075 prescriptions.




                   50
                      This total includes the amounts paid by Part D sponsors, by the Government, and by or
                   on behalf of beneficiaries.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   12
                   Table 2: Selected Prescriber Types Without the Authority To Prescribe in
                   10 States, 2009

                                                                                                                            Total
                                                                                 Number of           Number of
                    Prescriber Type                                                                                      Medicare
                                                                              Prescriptions         Individuals
                                                                                                                        Payments


                    Counselor                                                          87,400              2,838       $7,374,910

                    Chiropractor                                                       70,681              2,809       $4,929,992

                    Social Worker                                                      69,075              2,542       $5,391,641

                    Physical Therapist                                                 52,892              2,101       $3,690,425

                    Registered Nurse                                                   27,552              1,076       $2,104,351

                    Occupational Therapist                                             19,900                674       $1,481,768

                    Speech-Language Pathologist                                        17,214                664       $1,199,122

                          Total                                                      344,714             12,704      $26,172,208*
                   *Total does not equal $26,172,208 because of rounding. It includes the amounts paid by Part D sponsors, by the
                   Government, and by or on behalf of beneficiaries.
                   Note: For the purposes of this report, we considered a prescription to be one PDE record.
                   Source: OIG analysis of Part D data, 2012.




                   Part D paid for drugs ordered by 12,704 individuals without prescribing
                   authority in the 10 States. On average, each of these individuals ordered
                   27 prescriptions, but a few ordered extremely high numbers. In fact, 32 of
                   these individuals without prescribing authority ordered more than
                   1,000 prescriptions each.




                                  Examples of Individuals Without Prescribing Authority
                                  Who Ordered Extremely High Amounts of Part D Drugs

                      •      One Florida counselor ordered 2,912 prescriptions for
                             217 beneficiaries, which were filled at 103 pharmacies.
                      •      An Ohio social worker ordered 1,639 prescriptions, which were
                             all filled at one retail pharmacy.
                      •      A registered nurse from California ordered 1,111 prescriptions,
                             which were filled at a single retail pharmacy in New York.
                      •      An Illinois social worker ordered 1,345 prescriptions, which
                             were filled at 149 pharmacies for 312 beneficiaries. Almost all
                             of these pharmacies were part of the same national chain.




Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)                      13
                   As shown in Table 3, among the 10 States, California and Florida had the
                   highest number of prescriptions ordered by such individuals. California
                   accounted for 25 percent of all of these prescriptions, while Florida
                   accounted for 20 percent.

                   Table 3: Number of Prescriptions Ordered by Individuals Without Authority
                   in Each of 10 States, 2009

                                                                                             Percentage
                                                                          Number of                                Total Medicare
                    State                                                                             of
                                                                       Prescriptions                                    Payments
                                                                                           Prescriptions

                    California                                                  86,494                25%               $7,001,918

                    Florida                                                     68,027                20%               $4,570,107

                    New York                                                    49,245                14%               $3,887,613

                    Illinois                                                    34,199                10%               $2,564,564

                    Texas                                                       30,362                  9%              $2,246,366

                    Pennsylvania                                                17,825                  5%              $1,317,686

                    Ohio                                                        17,672                  5%              $1,206,428

                    New Jersey                                                  14,581                  4%              $1,208,509

                    North Carolina                                              14,034                  4%              $1,188,530

                    Michigan                                                    12,275                  4%                 $980,486

                        Total                                                 344,714                100%             $26,172,208*
                   *Total does not equal $26,172,208 because of rounding. It includes the amounts paid by Part D sponsors, by the
                   Government, and by or on behalf of beneficiaries.
                   Note: These calculations are based on the seven selected prescriber types. They do not include all types that do
                   not have the authority to prescribe.
                   Note: For the purposes of this report, we considered a prescription to be one PDE record.
                   Source: OIG analysis of Part D data, 2012.




                   Tens of thousands of drugs ordered by individuals
                   without prescribing authority were controlled
                   substances
                   Most of the prescriptions ordered by individuals who did not have the
                   authority to prescribe were for commonly used drugs; however, thousands
                   were for controlled substances. 51 These drugs are of particular concern
                   because they have potential for abuse. In total, 29,212 prescriptions for
                   controlled substances were ordered by 4,863 individuals without


                   51
                     Overall, the drugs that the prescribers without authority most frequently ordered were
                   simvastatin, lisinopril, hydrocodone-acetaminophen, amlodipine besylate, and levothyroxine
                   sodium. A recent OIG report found that these drugs were also the five most common drugs
                   dispensed by retail pharmacies in 2009. See OIG, Retail Pharmacies With Questionable
                   Part D Billing, OEI-02-09-00600, May 2012.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)                        14
                   prescribing authority. These included individuals we identified nationwide
                   and those from the 10 States for which we conducted an in-depth review.
                   Of these prescriptions, 7,679 were Schedule II drugs. Schedule II drugs
                   have the highest potential for abuse of any prescription drugs legally
                   available in the United States. They include commonly abused painkillers,
                   like oxycodone, that can be diverted and resold for profit. In one example,
                   a counselor ordered 174 Schedule II drugs for 13 beneficiaries. In a
                   second example, a contractor ordered 79 Schedule II drugs, which were all
                   commonly abused painkillers.




Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   15
                   CONCLUSION AND RECOMMENDATIONS
                   Nationwide, Medicare inappropriately paid for prescriptions ordered by
                   individuals who clearly did not have the authority to prescribe, such as
                   massage therapists and athletic trainers. Additionally, in 10 States we
                   reviewed in more depth, Medicare paid for prescriptions ordered by others
                   who did not have the authority to prescribe. These included counselors,
                   social workers, chiropractors, registered nurses, physical therapists,
                   occupational therapists, and speech-language pathologists. Even more
                   concerning, tens of thousands of these prescriptions were for controlled
                   substances.
                   Our findings raise concerns about the appropriateness of Medicare
                   payments and about patient safety. They also show the need for increased
                   oversight of prescribers to ensure that Medicare does not pay for drugs
                   ordered by individuals who do not have the authority to prescribe. Drugs
                   prescribed by such individuals may not be appropriate and may endanger
                   patients. Such practices may also contribute to the prescription drug abuse
                   problem in our Nation.
                   We recommend that CMS:
                   Require Sponsors To Verify That Prescribers Have the
                   Authority To Prescribe Drugs
                   CMS requires sponsors to verify that the prescriber identifiers on the PDE
                   records are currently assigned to a health care provider. However, having
                   an NPI does not mean that an individual has the authority to prescribe
                   drugs. CMS should also require sponsors to use the information available
                   in the NPPES database to check that the prescriber on the PDE record is a
                   type of prescriber that has the authority to prescribe under State law.
                   Increase the MEDIC’s Monitoring of Prescribers
                   CMS should instruct the MEDIC to conduct additional proactive data
                   analysis to identify individuals who do not have authority to prescribe
                   drugs and further investigate and refer these individuals, as appropriate.
                   Ensure That Medicare Does Not Pay for Prescriptions From
                   Individuals Without Prescribing Authority
                   CMS should issue guidance that requires sponsors to review PDE records
                   to verify that the prescriber is associated with a type of prescriber that has
                   the authority to prescribe and to submit adjustments and deletions when
                   appropriate. This will help to ensure that payments are accurate. CMS
                   should also monitor sponsors’ performance to make sure they are
                   appropriately adjusting the PDE records prior to the reconciliation process
                   in which CMS finalizes payments to sponsors.

Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   16
                   Follow Up on Individuals Without Prescribing Authority Who
                   Ordered Prescriptions
                   In a separate memorandum, we will refer to CMS for appropriate action
                   the individuals without prescribing authority who ordered Part D
                   prescriptions, particularly those who ordered high numbers of controlled
                   substances.




Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   17
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS concurred with all four of our
                   recommendations. It concurred with our first recommendation, stating
                   that it will issue guidance requesting “sponsors to include a retrospective
                   review in their required programs to combat fraud, waste, and abuse where
                   data anomalies, such as those identified by OIG in this report, suggest
                   possible inappropriate prescribing and to report any potential fraud to the
                   MEDIC for further investigation.” Further, CMS stated that it will
                   examine ways to improve the reliability of data in the National Plan and
                   Provider Enumeration System (NPPES) database. CMS stated that it is
                   aware that there are limitations to the NPPES database and believes that
                   instances identified in this report are likely due to administrative data
                   input and maintenance issues. For example, prescribers may have a record
                   that indicates the prescriber is a student, when other data indicates the
                   individual has become a full licensed practitioner. We agree with CMS
                   that the reliability of the NPPES should be improved and we support its
                   efforts to do so; however, we do not agree with CMS’s assertion that the
                   instances in this report are due to limitations of the NPPES. As explained
                   in the report, we took multiple steps to ensure that none of the individuals
                   included in this report provided any information indicating they have
                   prescribing authority. For example, we looked for credentials, such as
                   M.D., and a DEA number. If they had either, we assumed they had the
                   authority to prescribe. We also excluded all students from our review
                   because some medical students, such as those on rotation, have the
                   authority to prescribe under certain circumstances.
                   CMS concurred with our second recommendation and stated that “the
                   MEDIC will continue to monitor prescribers and identify other proactive
                   analyses targeted at prescribers.” It further noted that the MEDIC
                   currently conducts proactive analysis to identify prescribers who do not
                   have the authority to prescribe drugs, validates these finding through
                   further investigations, and refers to law enforcement and State licensing
                   boards, as appropriate. Additionally, CMS noted that it has increased its
                   monitoring of prescribers through the Part D Recovery Audit Contractor,
                   with which it has contracted to identify and recover Part D improper
                   payments.
                   CMS concurred with our third recommendation, stating that current PDE
                   guidance provides Part D sponsors with a process to delete PDEs that are
                   fraudulent. PDEs from prescribers confirmed by the MEDIC as not
                   having prescribing authority would be communicated back to sponsors
                   who would then delete the PDEs and implement point-of-sale edits to


Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   18
                   reject claims from these fraudulent prescribers in the future. Finally,
                   CMS concurred with our fourth recommendation to follow up on
                   individuals without prescribing authority who ordered prescriptions.
                   We support CMS’s efforts to address these issues. For the full text of
                   CMS’s comments, see Appendix A.




Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   19
APPENDIX A

Agency Comments

          /'!.fA'IICt.f.,
      (        ~              DEPARTMENT OF HEALTH & HlJMAN SERVICES                                 Centers for Medicare 8. Medicaid Services


          . .<::-z~                                                                                  Administrator
                                                                                                     Washington, DC 20201




                            DATE:            MAY - 9 2013
                            TO: 	         Daniel R. Levinson
                                          Inspector General
                                                             /S/
                            FROM: 	       Ma(i~ UV61l.n CP
                                          Acting Adm inist!Utor

                            SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Medicare Inappropriately Paid
                                       for Drugs Ordered by Individuals Without Prescribing Authority''
                                       (OEI-02-09-00608)


                            The Centers f()r Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                            comment on the above-referenced OIG draft report. The purpose of this report is to determine
                            whether Medicare Part D paid for drugs ordered by individuals who did not have the authority to
                            prescribe.

                            The CMS is committed to preventing prescriber fraud, particularly when fraud is related to the
                            serious and growing problem of prescription drug abuse . To help protect the Medicare Part D
                            program , CMS requires plan sponsors to have compliance programs in place to help detect,
                            prevent, and correct fraud, waste, and abuse. CMS also contracts with a Medicare Drug Integrity
                            Contractor (MEDIC) that is tasked with identifying and investigating potential fraud and abuse,
                            referring such cases to law enforcement, and fulfilling requests for information from law
                            enforcement.

                            We appreciate OIG's efforts in working with CMS to ensure that Medicare, particularly
                            Medicare Part D. does not inappropriately pay for drugs ordered by individuals who lack the
                            authority to prescribe such drugs . Our response to each of the OIG recommendations follows.

                            OIG Recommendation

                            The OIG recommends that CMS should require sponsors to verify that prescribers have the
                            authority to prescribe drugs.

                            CMS Response

                            The CMS concurs with this recommendation. CMS currently requires Part D sponsors to verify
                            that prescribers of controlled substances paid for under Part D have an active and valid
                            individual National Provider Number (NPI) number to crosswalk to an individual Drug




    Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09·00608)                               20
Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   21
Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   22
                   ACKNOWLEDGEMENTS
                   This report was prepared under the direction of Jodi Nudelman, Regional
                   Inspector General for Evaluation and Inspections in the New York regional
                   office, and Nancy Harrison and Meridith Seife, Deputy Regional
                   Inspectors General.
                   Miriam Anderson served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the New York regional
                   office who contributed to the report include Jenell Clarke and
                   Jason Kwong. Central office staff who contributed include
                   Eddie Baker, Jr.; Kevin Farber; Meghan Kearns; Christine Moritz; and
                   Debra Roush.




Medicare Inappropriately Paid for Drugs Ordered by Individuals Without Prescribing Authority (OEI-02-09-00608)   23
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
